<html>
<title> - MODERNIZING FOOD AID: IMPROVING EFFECTIVENESS AND SAVING LIVES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


     MODERNIZING FOOD AID: IMPROVING EFFECTIVENESS AND SAVING LIVES

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 14, 2018

                               __________

                           Serial No. 115-108

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 
                               __________
                                

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-654PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4027302f002335333428252c306e232f2d6e">[email&#160;protected]</a>                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Andrew Natsios, executive professor, The Bush 
  School of Government and Public Service, Texas A&M University 
  (former Administrator, U.S. Agency for International 
  Development)...................................................     4
Erin Lentz, Ph.D., assistant professor of public affairs, Lyndon 
  B. Johnson School of Public Affairs, The University of Texas at 
  Austin.........................................................    17
The Honorable Dan Glickman, distinguished fellow of global food 
  and agriculture, Chicago Council on Global Affairs (former 
  Secretary, U.S. Department of Agriculture).....................    25

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Andrew Natsios: Prepared statement.................     7
Erin Lentz, Ph.D.: Prepared statement............................    19
The Honorable Dan Glickman: Prepared statement...................    28

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63
The Honorable Edward R. Royce, a Representative in Congress from 
  the State of California, and chairman, Committee on Foreign 
  Affairs: Material submitted for the record.....................    65
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    70

 
     MODERNIZING FOOD AID: IMPROVING EFFECTIVENESS AND SAVING LIVES

                              ----------                              


                      WEDNESDAY, FEBRUARY 14, 2018

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:10 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. We will ask now that the committee comes to 
order. This hearing today is on food aid reform and this 
committee's long work to strengthen foreign assistance, and we 
do that in order to have an effective way to advance our 
interests and our values around the world. Properly 
implemented, these relatively small investments can strengthen 
our national security and can support the development of 
democratic governments and strong market economies overseas.
    So last month with committee leadership, the House passed 
the African Growth and Opportunity Act, and the MCA 
Modernization Act off the floor, which promises to create new 
opportunities for U.S. trade and investment. It has the promise 
of sparking private sector-led growth, particularly in Africa. 
And last Congress, we enacted the Foreign Aid Transparency and 
Accountability Act to identify what is and what is not working. 
And I want to, again, thank Judge Poe for his leadership on 
that bill.
    This committee also led the way on pushing for reforms to 
one of the central elements of our foreign assistance, and that 
is the Food for Peace Act. These reforms enabled USAID to chip 
away at monetization and provided limited flexibility for NGOs 
to use market-based tools.
    But much remains to be done to truly modernize the Food for 
Peace Act. We must, in my view, completely end this inefficient 
process known as monetization, where local aid groups sell 
donated U.S. food to support their operations. This policy, 
along with requirements that all aid provided through Food for 
Peace be purchased from U.S. farmers and sent overseas by U.S. 
shippers, that process harms local markets. And more 
importantly, it slows our response to emergencies.
    These restrictions also needlessly drive up costs by 
modernizing the Food for Peace Act and prioritizing flexibility 
and efficiency, we can free up $300 million, and this will 
enable us to reach almost 10 million more men, women, and 
children, who would otherwise face starvation in places like 
Syria and Yemen, northern Nigeria and Somalia.
    Hunger in countries such as these fuels conflict; it fuels 
instability. So helping people get the food they need not only 
helps save lives, it also strengthens U.S. national security. 
Modernizing U.S. food assistance will also help reach people 
immediately after disaster strikes. It does that by allowing us 
to purchase food closer to the areas in crisis.
    Under current law it takes about 14 weeks for U.S. food to 
reach those in need. As I saw with many members of this 
committee when we traveled to the Philippines right after the 
cyclone--it was that typhoon Haiyan, as I recall--we don't have 
14 weeks. Certainly, the people there did not have 14 weeks to 
wait for us to respond to the disaster of that magnitude. So we 
saw the flexibility that had been put in place with a pilot 
program we had supported in this committee, where people were 
able to get that food immediately. As we were landing, they 
were being fed. We need the flexibility to purchase food in the 
region and get it to impacted areas within hours, not within 14 
weeks. Saving time means saving lives.
    Additional reforms are also worth considering. In South 
Sudan, committee staff here saw how others provide assistance 
through secured debit cards, which recipients use to purchase 
the food locally in a crisis area like that. Providing 
assistance this way helps build economic infrastructure that 
can endure after aid ends. That said, no one is talking about 
completely cutting the American farmer out of their food aid 
programs.
    Our food aid programs are here to stay, and in places that 
suffer from cyclical drought, like Ethiopia, then food grown in 
the U.S. is critical, but this is not always the case, and that 
is what we are talking about here today.
    Sometimes we need to provide U.S. commodities. Other times, 
we will need to buy local, or we will need to use vouchers. 
More often than not, we will need to do both, but we cannot 
keep supporting outdated, unnecessary, expensive requirements. 
Such deliberate, unjustified waste does not serve our national 
interests. It certainly doesn't save lives in the types of 
crisis we most often see. So I now turn to our ranking member, 
Eliot Engel, who has been a partner in these aid efforts for 
his remarks.
    Mr. Engel. Thank you very much, Mr. Chairman, and thank you 
for calling this hearing. And to our distinguished witnesses, 
welcome to the Foreign Affairs Committee. I want to welcome all 
of you, especially my good friend and former colleague, 
Secretary Glickman. It is nice to have you here again, and we 
are grateful for all the witnesses' time and willingness to 
share your expertise with our members.
    I am glad we are focusing on food aid today, because this 
is an effort on the administration's chopping block, 
unfortunately, like so many of our other diplomatic and 
developmental priorities. The administration's budget 
eliminates the Food for Peace account. I think that is a 
terrible idea, it would hurt hungry people, that shows a lack 
of understanding about why the Food for Peace program is so 
important to our foreign policy.
    Since 1954 Food for Peace has fed more than 4 billion 
people, that is billion with a ``B'' in 150-plus countries all 
over the world. With our country's tremendous blessing of 
agricultural resources helping famine-stricken and malnourished 
people around the world is simply the right thing to do. 
Perhaps no better effort shows America's generosity of spirit 
than Food for Peace. For decades, it has been a model of what 
American leadership should look like. There is also a 
tremendous amount of goodwill that flows from those helping 
those in need. People who benefit from this aid understand that 
they have a friend in the United States, that we want people 
everywhere to thrive and get ahead.
    Well-fed populations are healthier populations. Healthier 
populations mean stronger countries. Better partners for the 
U.S. on the global stage. At a time when our standing in the 
world has plummeted, and American leadership has taken a back 
seat, the idea of slashing investments and diplomacy and 
development, frankly, is just baffling. I think Congress should 
reject the proposal to eliminate the Food for Peace program. I 
think we should, frankly, take the administration's entire 
international affairs budget proposal and look at it very 
carefully and toss it if we have to.
    Now does this mean that the Food for Peace program is 
perfect? Of course not. I agree with what the chairman said 
about things that we need to do to make it better. For 
instance, even though it is the largest food program in the 
world, Food for Peace lags behind other countries in terms of 
response time in crisis situations. When we ship food from the 
U.S., it can slow down the delivery of assistance by as much as 
4 months, and cost up to 50 percent more than sources of food 
closer to those in need.
    So we need to take stock of what is working and what isn't 
so that we can streamline and modernize this effort. We need to 
strike the right balance among a number of factors, quickly 
getting food, as the chairman pointed out, to those who need it 
most, making good use of the taxpayer's dollars and keeping the 
American farmer at the center of things when it comes to how we 
source food aid.
    So we do need to modernize the Food for Peace Act, but we 
must be careful not to throw the baby out with the bath water. 
So I look forward to hearing from our witnesses. I know you all 
have a wealth of ideas that will help us improve this program 
and policy going forward.
    Thank you, Mr. Chairman, I yield back.
    Chairman Royce. I also thank, just for the record here, Mr. 
Chabot and Joe Wilson and Congressmen Sherman, Kennedy, Messer, 
Randy Webber, for going with us on that trip to the Philippines 
right after the typhoon, and also, on our subsequent trip or 
another trip to the Philippines, Mr. Engel, Mr. Meeks, Mr. 
Marino, and Mr. Salmon, as we worked on this issue.
    This morning, we are pleased to be joined by a 
distinguished panel. Professor Andrew Natsios currently serves 
at Texas A&M as executive professor at the Bush School of 
Government and Public Service. He is director of the Scowcroft 
Institute of International Affairs. And from 2001 to 2006, of 
course, he served as Administrator of the U.S. Agency for 
International Development. Having served on the front lines of 
some of the deadliest humanitarian emergencies of our time, 
including the 2004 Indian Ocean tsunami, the 2003 genocide in 
Darfur, Sudan, the cyclical famines in the Horn of Africa. He 
became one of the earliest advocates for food aid reform, and I 
am very proud to welcome this distinguished public servant back 
to this committee.
    Dr. Erin Lentz is an assistant professor of public affairs 
at the Lyndon B. Johnson School of Public Affairs at the 
University of Texas at Austin. And, of course, Mr. Dan Glickman 
is currently a Distinguished Fellow of Global Food and 
Agriculture for the Chicago Council on Global Affairs, and 
previously, he served as our Secretary of the U.S. Department 
of Agriculture. Welcome, again, to this committee.
    So without objection, the witnesses' full prepared 
statements will be made part of the record, and members are 
going to have 5 calendar days to submit any statements or 
questions or any extraneous material for the record. So if you 
would, Mr. Natsios, we will begin with you. Please summarize 
your remarks, and then we will go to questions.

STATEMENT OF THE HONORABLE ANDREW NATSIOS, EXECUTIVE PROFESSOR, 
  THE BUSH SCHOOL OF GOVERNMENT AND PUBLIC SERVICE, TEXAS A&M 
UNIVERSITY (FORMER ADMINISTRATOR, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT)

    Mr. Natsios. Thank you, Mr. Chairman, Ranking Member, thank 
you for the invitation to speak today. I would like to say, Mr. 
Chairman, those of us in the aid community are very upset that 
you are retiring. We understand why, but we are still upset, so 
it will be a great loss for this institution to have you 
retire. You have been a leader in this fight for a very long 
time, and I actually think this year may do it because of some 
shift in the interest groups' opinion on this legislation, 
which I will get to in a moment.
    This is a critical subject at a critical moment in world 
affairs. The world order, as we have known it for the past 70 
years, has been unraveling for a decade now, and it is a 
function of history. We are not the hegemon anymore, we can't 
direct things we used to. I am not sure how I would function if 
I were still USAID Administrator, since they were afraid of the 
United States, and bad people stopped doing bad things because 
of America intervening to stop them.
    And that is--we are seeing the consequence of that, because 
we are going through the worst refugee and internally displaced 
crisis in post World War II history; 65 million people 2 years 
ago were displaced. I think it is up over 70 million now, 
because there are four famines going on, and I might add, it is 
going to get worse. America cannot stop what is going on. We 
used to be able to. We can't do that anymore. And what we need 
to do is have new tools, stronger tools, to use the resources 
we have now to save more lives faster.
    I want to, just for a moment, tell you a personal story why 
this matters to me. During World War II, the Nazis occupied 
Greece, my ancestral home where my grandparents came 100 years 
ago, but my great uncle still lived there, and he was a factory 
worker in Piraeus. The Nazis stripped the country of food to 
feed Rommel's Army, and \1/2\ million Greeks starved to death, 
7 percent of the population. Next to the Holocaust, it was the 
worst death rate, and Poland, worst death rate in Europe.
    Oxfam was created at an Anglican church in Oxford, England 
to bring food to the starving Greeks. By the time it got there 
my great uncle was dead. They found him in a field eating 
grass, and he was buried in a mass grave along with many other 
hundreds of thousands of other Greeks. My father told me that 
story over and over again. Every time we had a famine and USAID 
was responding to it, I remembered my great uncle, the story of 
what he went through and what our family went through. People 
do not starve to death quickly. They starve to death slowly, 
painfully.
    The United States Government is the leading humanitarian 
power in the world, and has been since World War II. It remains 
so in terms of the aid budget, in terms of the humanitarian 
part of that budget, the emergency response, which has had 
broad support in the Congress from very conservative, very 
liberal Members, Democrats and Republicans from the beginning. 
Even people who would be regarded as isolationists, like 
Patrick Buchanan when he ran for President in 1992 against 
President Bush in the primary, said he would abolish aid, but 
he would leave the emergency response system in place.
    And that bipartisan support allowed the agency to have a 
profound effect, and I saw it up close because I ran the 
program for 9 years in two administrations. And I took care to 
watch exactly what the humanitarian bureaus were doing, the 
Office of Foreign Disaster Office, the Office of Food for 
Peace, and the Office of Transition Initiatives.
    There are three reforms that I endorse strongly and that I 
gave a speech in 2005 in Kansas City. I have to say, it was not 
one of the best-received speeches I ever gave. In fact, I had 
two security people with me who were worried I was going to get 
assaulted before I left the building, in which I announced that 
President Bush would be proposing a 25 percent set-aside in 
Title 2 for local purchase of food aid, and there was stunned 
silence when I gave it.
    Without going into all of politics of that, the Food Aid 
Coalition, which met annually, was composed of the shipping 
companies, the NGOs, and the farmers. And they were the support 
behind the Food for Peace program, which we appreciated. I 
think if some of them had been a little bit more broad in their 
thinking, a little bit more flexible, we could have got these 
reforms through much earlier. Three reforms. One is that up to 
50 percent of Title 2, and I would not support more than 50 
percent. We need a base to use to intervene in emergencies when 
there is massive crop failure as Congressman Royce just said. 
There are instances where we need a large volume of food from 
the United States that we can inject into the system before the 
food economy collapses. But if we put 50 percent of it into 
local purchase, we can save hundreds of thousands of people's 
lives. We can move much faster. And we can get into areas that 
if we tried to move food aid into, the security situation would 
make it impossible to do anything.
    The second reform is to repeal the cargo preference law, 
which, in my view, is a scandal. It is simply an oligopoly at 
this point. There are just two or three companies that ship 
most of the food. Sometimes they don't even bid. USAID will put 
a bid out to ship food, and no company bids on it. That is a 
delay in and of itself. They have to go back and rebid it. And 
the law does not allow flexibility.
    And the third reform is to prohibit the modernization of 
food aid to produce local currency for NGO programs, which is a 
terrible practice. However, and I want to add this in, because 
this is not widely known, even in the Congress--there are 
situations where USAID and WFP will ship food in, auction it 
off to stabilize hyperinflation of food prices. Hyperinflation 
kills as many people in a famine as the lack of food because 
people--my great uncle had a job. He had money. The problem is 
the price of food was so high he couldn't buy enough to survive 
on. And so, we will go in when prices have gone up 700 percent 
as they did in Somalia in 1992, and auction food off, which is 
what CARE did with USAID food in 1993 to stabilize prices. We 
need to allow that option there. But that is not for local 
currency, and it is not to run other programs. It is to 
intervene the markets when prices are out of control.
    So, Mr. Chairman, I think because the NGOs now are all on 
board in this. World Vision, the last NGO holdout, last year 
enthusiastically endorsed these changes. Number two, we now 
have the American Farm Bureau endorsing these reforms. The last 
holdout is the shipping industry, which is basically an 
oligopoly. They are using the Federal Government to protect 
almost a monopolistic control over this shipping system, and I 
think it is scandalous, frankly, that this has been allowed to 
go on this long.
    So, Mr. Chairman, I hope this year is the year that we can 
get these reforms through. Thank you.
    [The prepared statement of Mr. Natsios follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Mr. Natsios, thank you very much. Dr. Erin 
Lentz.

 STATEMENT OF ERIN LENTZ, PH.D., ASSISTANT PROFESSOR OF PUBLIC 
   AFFAIRS, LYNDON B. JOHNSON SCHOOL OF PUBLIC AFFAIRS, THE 
                 UNIVERSITY OF TEXAS AT AUSTIN

    Ms. Lentz. Chairman Royce, Ranking Member Engel, and 
honorable representatives on the committee, thank you for 
inviting me to testify today. I have been researching food aid 
and food assistance policies for the past 14 years, and please 
see my written testimony for my full remarks.
    Today, I will highlight two budget-neutral policy changes 
that can improve the effectiveness of U.S. food aid and market-
based food assistance. These two policy changes could save 
millions of lives, stem forced migration, and ensure that 
American tax dollars do more to help hungry people around the 
world.
    First, relax or eliminate requirements that food aid be 
procured in the U.S.; second, relax or eliminate cargo 
preference requirements on U.S. food aid shipments. As Mr. 
Natsios stated, the U.S. has long been a leading provider of 
food aid. U.S. food aid and market-based food assistance, such 
as vouchers and locally and regionally purchased foods, save 
lives and livelihoods, but the need for continued U.S. 
leadership and food aid programs is stronger than ever. Recent 
estimates indicate 815 million people worldwide are 
undernourished, more than double the U.S. population.
    At the same time, U.S. food assistance is an increasingly 
scarce resource. In inflation-adjusted terms, funding has been 
dropped 76 percent since the 1960s. This means we must find 
ways to do more with the resources we have. Two budget neutral 
strategies for doing this are as follows: First, relaxing or 
eliminating requirements that commodities be purchased in the 
U.S. would help food aid programs reach more people and faster. 
Food aid purchased in the U.S. and shipped abroad is the 
slowest form of food assistance, and most often, the most 
expensive. For example, a study I co-authored found that 
market-based food assistance is usually substantially cheaper 
than purchases in the U.S. Buying grains in or near the country 
where the U.S. donates food aid saved 53 percent. That is 53. 
And in the case of legumes and pulses, it saved 25 percent.
    As the chairman and ranking member noted, compared to food 
aid from the U.S., market-based food assistance also shaved 14 
weeks off of delivery time. Saving time matters. Hungry 
families on the verge of migrating in search of food cannot 
afford to stay in place and wait those extra months for 
delivery of assistance.
    Further, the 14 weeks saved when buying food closer to 
beneficiaries works out to be approximately 10 percent of the 
so-called first 1,000 days. This 1,000-day window between a 
woman's pregnancy and her child's second birthday is the most 
critical window for a child's cognitive and physical 
development. Delivering food assistance faster during this 
crucial period can, therefore, have lifelong benefits. In sum, 
halting the wasteful practice of buying food aid in the U.S. 
and shipping it abroad is perhaps the single most effective 
change that could be made to current U.S. food assistance 
policies. It could allow the U.S. to reach an additional 4 
million to 10 million people more per year at no additional 
cost.
    The second proposal I would like to highlight is to relax 
or eliminate cargo preference requirements. These rules require 
that half of all food aid purchased in the U.S. be shipped on 
U.S.-flagged vessels regardless of cost. This, essentially, 
adds a 23 to 46 percent surcharge on food aid shipped on U.S.-
flagged vessels, a cost of about $50 million per year.
    Since 2015, this surcharge has been paid for entirely by 
U.S. taxpayer-funded food aid programs. To make matters worse, 
it generates a windfall profit for a few ship owners, often 
foreign corporations operating U.S. subsidiaries. For example, 
three foreign shipping lines accounted for nearly half of all 
food aid carried by U.S.-flagged ships from 2012 through mid 
2015. Though often claimed that food aid cargo preference 
contributes to military readiness, no credible evidence 
supports this claim. Indeed, the majority of food aid shipments 
are on U.S.-flagged vessels that the U.S. Government has deemed 
not militarily useful. Removing cargo preference rules would 
enable U.S. food aid programs to feed an estimated 1.8 million 
more people per year.
    The evidence is clear: Two policy changes, both of which 
are budget-neutral, would greatly enhance food assistance 
programs. First, relax or eliminate domestic procurement 
restrictions on food aid; second, relax or eliminate the food 
aid cargo preference rule. These two policy reforms matter. 
American taxpayers deserve to not have their tax dollars and 
goodwill squandered supporting special interests and complying 
with burdensome restrictions. These reforms would also allow 
U.S. food assistance programs to reach more people in need more 
quickly and at no additional cost. Ending these two 
restrictions could offer relief to an estimated 5.8 to 11.8 
million more people per year. Thank you for your time and 
attention to this very important issue.
    [The prepared statement of Ms. Lentz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thank you, Dr. Lentz. Secretary Glickman.

 STATEMENT OF THE HONORABLE DAN GLICKMAN, DISTINGUISHED FELLOW 
   OF GLOBAL FOOD AND AGRICULTURE, CHICAGO COUNCIL ON GLOBAL 
   AFFAIRS (FORMER SECRETARY, U.S. DEPARTMENT OF AGRICULTURE)

    Mr. Glickman. Thank you, Mr. Chairman. First of all, let me 
say that when you referenced my time at USDA, my best time in 
public service was my 18 years in the House. And I was never a 
member of this committee, but I have told people it is, 
notwithstanding all the controversy that is going on now, still 
the best job in America, and we are very sorry to lose you as a 
leader. You and Congressman Engel and the members of this 
committee have done more to encourage U.S. engagement in the 
world than almost anybody else. I wear many hats, the Chicago 
Council, the World Food Program, U.S.A., U.S. Global Leadership 
Coalition, and what this committee has done to make America 
stronger by encouraging its engagement in the world, not 
disengagement, I think has really been important.
    I generally agree with the comments of my colleagues. I 
would mention the first reform is to ensure that we do not go 
down the road of meat-axing the budgets of the State Department 
and USAID. It is interesting to look at the budget document of 
the President, and it says, ``The budget acknowledges the 
importance of State and USAID to advance the national security 
interests of the United States.''
    And then it announces a $9 billion cut, or about 26 
percent, a cut of more than a quarter. Even General Mattis, our 
Secretary of Defense, has said, if you don't fund the State 
Department, I have got to buy more bullets. And I think there 
is a recognition that we need a strong military, but we also 
need a strong development and diplomacy side of the equation. 
And so, I hope that this budget does not go forward because I 
think it will hurt America and American engagement in the 
world.
    In terms of the issues we are talking about today, the 
national security implications of food assistance are enormous. 
Food price spikes led to fights and protests over the price of 
bread in Tunisia, this is one of the primary causes of the 
revolutions that the negative side of the Arab Spring and 
snowballed into complete regional destabilization, and stoked 
all sorts of fears in terms of the world economy. And the 
national security interests of the United States in making sure 
that we stabilize destabilized areas by feeding hungry people 
with nutritious food is critical to our impact in the world. 
And if we are out of the game, somebody else will get into this 
game or nobody will get into the game, and I don't want to see 
that happen.
    Second of all, as former Secretary of Agriculture, I am 
concerned about the impact of American farmers, and there is 
clearly a role for commodities as part of our business of 
providing assistance in the world. It just needs to be 
flexible. The op-ed piece in the Nashville Tennesseean, which 
probably everybody has seen written by Senators Corker, Coons, 
and Zippy Duvall, president of the American Farm Bureau, could 
be my statement today. It basically says what you said in your 
opening statement. It encourages flexibility to deal with 
different kinds of crises, and it also recognizes the 
importance of the developing world for American farmers.
    Africa has some of the fastest-growing economies of the 
world. The African food and agriculture sectors projected to 
reach $1 trillion by 2030. If America continues to invest in 
the next generation of agricultural entrepreneurs, we and not 
China, will be who they will turn to when looking for new seeds 
or fertilizer, technology, business partnerships, and high 
value products. But to meet that future, we have got to promote 
the entirety of the aid toolkit. So some of that is U.S. 
commodities, which Andrew Natsios and my colleague, Dr. Lentz, 
have said may be necessary in severe humanitarian crisis. But 
some of it is other things, including using EBT cards and paper 
vouchers in the host communities.
    I, myself, went to the Zaatari refugee camp. I don't know 
if you have been there, which is on the Jordanian-Syrian border 
about 100,000 people. And I saw the use of e-cards, basically 
EBT cards and paper vouchers, about 100,000 people in that 
camp. And the conditions were frankly not very good, but they 
were getting food. They were using their cards to buy food. 
Some of that food came from the region where they lived in, but 
the cash was supported by the United States through the World 
Food Program, and I saw the branding when I was there, which is 
very important, that people know that it is coming from the 
United States of America.
    In Lebanon, WFP supported 650,000 Syrian refugees mostly 
with cash-based assistance in a place where almost 25 percent 
of the population is comprised of Syrian refugees. And Lebanon 
is hosting 1 million of these refugees right now. Lebanon 
directly injected U.S. dollars, about $1 billion into the 
Lebanese economy through these programings.
    And so, you need a variety of things. In-kind commodities 
are critical to feeding local populations. This can include 
corn and soy, or protein-rich therapy foods like Plumpy'Nut for 
the severely malnourished, but when local markets are 
functioning, new techniques like vouchers and debit cards can 
be utilized to great effect. But in the cases of natural 
disasters, if you talked about it the Philippines, Nepal, and 
some places in sub-Saharan Africa right now, shipping food from 
the United States is still going to be critically important, 
and can't be out of the equation completely.
    I agree that the use of monetization is not a good idea, 
generally disrupts local markets and impacts farmers in the 
region for decades, and Congress has recognized the need to 
scale this back.
    I would say I was very concerned about the budget proposal 
to eliminate the McGovern-Dole school lunch program, a great 
bipartisan effort by two great Senators who were involved in 
these issues, as well as concerned about the efforts to 
diminish the Feed the Future Initiative. In 2016, the McGovern-
Dole International Food for Education program reached 2 million 
children. In the face of famine in Ethiopia, farmers reached by 
USAID'S resiliency programs were significantly better at 
maintaining their food security, only experiencing a 4 percent 
drop, compared with those not reached by the program who saw a 
30 percent drop. And this is the difference between being able 
to continue to feed your family and going hungry.
    There are 500 million small holder farmers in the world. 
The U.S. is uniquely positioned to provide technical 
assistance, help build infrastructure, and help American 
farmers and ranchers at the same time. So again, I applaud your 
efforts here. Those of you who have traveled to these camps to 
see the incredible problems in Yemen, South Sudan, Ethiopia, 
and to see what the United States has done, and really, to be 
perfectly honest with you, I don't see anybody else filling the 
gaps. And it is a great addition to the American toolkit and 
American power, and I thank you very much for allowing me to 
testify.
    [The prepared statement of Mr. Glickman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                              ----------                              

    Chairman Royce. Thank you, Mr. Secretary. We have seen in 
Sudan and South Sudan, food used as a weapon. We have seen it 
in Somalia. We have seen it firsthand in Syria as well. And Mr. 
Natsios is right. During the war, other than the Jewish 
communities in which men and women and children, the majority 
perished; the Greek community, because of the resistance; in 
the Peloponnese; in northern Greece; in Crete, because of the 
resistance, they had the highest share of losses of any 
resistance that engaged against the Nazis and the highest share 
of famine, a famine that was orchestrated by the Nazis during 
the occupation. And our ability in order to project our 
influence, not just for humanitarian interests, but for 
economic and security reasons as well, is articulated by 
Secretary Glickman is very important. I thought I would ask Dr. 
Lentz, I am particularly interested in key issues like maternal 
and child survival in situations like this, and given your 
research, maybe you could explain.
    And the other thing I was going to say is the 
prepositioning of food is one of the things we often hear. 
Well, you could preposition food, but I just want to tell you, 
when our committee, after the typhoon were in the Philippines, 
we were surprised to learn that even the prepositioning takes 
weeks to get the food there, as opposed to what was being done, 
which was buying the food locally in the region in the 
Philippines and getting it there to the site in real time. And 
so, Dr. Lentz.
    Ms. Lentz. Thank you for those comments. I think you are 
exactly right about prepositioning. The best available evidence 
suggests that it costs between $30 to $60 per metric ton to 
preposition food because of the additional storage costs 
because of the additional fumigation costs, et cetera, so it is 
a little bit more expense. But you are right, that trade-off 
would be worth it if it could get there very quickly. And 
oftentimes, it is still slower than using other sorts of tools 
in the food assistance basket, so buying food locally, relying 
on vouchers, or electronic transfers. These sorts of things 
tend to be faster than prepositioned food, although 
prepositioned food is very much better and faster than food 
coming from the U.S. in terms of timeliness.
    And that comes to your second point about the maternal 
child health implications around time savings. I think the best 
available evidence has indicated that this first 1,000-day 
period is absolutely crucial and can have lifelong effects on 
cognitive skills, on health, on earnings and even 
intergenerational impacts. So children who are undernourished 
when they grow up and have children, their children are more 
likely to be unwell, as well.
    So the opportunity for us to intervene earlier is 
absolutely critical, especially in these cases where there is 
an emergency, and we need to respond quickly. Thank you.
    Chairman Royce. And let me also talk about that growing 
effort for reform that Secretary Glickman referenced. So it was 
yesterday that the President, as you said of the National Farm 
Bureau, co-authored that op-ed that endorses these key reforms. 
And we know that Food for Peace has enjoyed strong support from 
American farmers and shippers and the NGOs implementing these 
programs. So, Mr. Glickman, can you speak to why so many 
farmers are coming out in support of the reform effort? And 
maybe Dr. Lentz, should we be concerned by claims that changes 
to the Food for Peace program will affect U.S. maritime 
readiness? Maybe you can address that issue or any of the 
panel.
    Mr. Glickman. Well, I think that Zippy Duvall, who I don't 
know very well, took a courageous stand because there has been 
kind of a mantra in farm country for many years that the 
majority of our assistance ought to be in the form of 
commodities. And working especially with Senators Coons and 
Corker, both of whom share yours and Chairman Engel's views on 
a lot of these issues, I think was a gutsy thing for him to do, 
to come out with this, particularly because all of agriculture 
has not necessarily been unified on this particular point.
    I want to make the point, however, that I don't think we 
ought to think this means 100 percent cash. It can't.
    Chairman Royce. No.
    Mr. Glickman. But it does mean that somebody has got to be 
able to use good judgment, and not necessarily be bound by 
bureaucratic rules, which stovepipe the kind of programs that 
go out, so if we need to get cash, we get cash there for local 
market purchasing.
    Chairman Royce. To quote Aristotle or Andrew Natsios, 
``balance in all things.'' Comment maybe on the issue of 
maritime preparedness.
    Ms. Lentz. So just to echo Mr. Glickman's point, I agree, 
flexibility is crucial. We want to provide USAID and USDA with 
the broadest set of tools possible so that they can identify 
what is appropriate for the right context.
    Regarding military usefulness, I think claims that food aid 
cargo preference requirements somehow support military 
readiness are not backed up by any evidence that I have seen 
that I find compelling, frankly. First, there is no evidence 
that food aid helps in that food aid is often a very small part 
of the actual cargo preference laws. It is only about 13 to 15 
percent of cargo carried is food aid. And so, what that means 
is the bulk of the cargo preference requirements are being met 
through military cargo.
    So it sounds like, okay, well, what is the big deal for 
food aid? Well, the big deal is it costs a lot for the food aid 
program. And so it is a very high cost to need to support or 
need to kind of meet these cargo preference requirements.
    Furthermore, officials at both the Department of Defense 
and Homeland Security have expressed support for food aid 
reforms. They have suggested that cargo preferences for food 
aid does not actually make a substantial contribution to 
military readiness.
    Chairman Royce. Thanks, Dr. Lentz. Okay. Mr. Engel, my time 
has expired.
    Mr. Engel. Thank you, Mr. Chairman. Let me ask a question. 
Let me ask all of you if you could please be concise in the 
answer. A question on a point I made earlier. The President 
wants to end the Food for Peace program. I don't think that is 
a good idea. He wants to eliminate it as a standalone program. 
He says that emergency food assistance will instead come out of 
the international disaster assistance account. Is this a good 
idea or a bad idea, Mr. Natsios?
    Mr. Natsios. Well, Congressman, when I was the Assistant 
Administrator of the bureau in which the Office of Foreign 
Disaster Assistance and Food for Peace was, this was under Bush 
41, 28 years ago, we considered merging not the accounts, but 
the staffs of Food for Peace and OFDA, because there are 
tensions. I understand they moved into the same building, and 
there has been a huge drop in the tension levels, the friction 
that exists between Federal offices since they are co-located.
    So I would actually support a merger of the two offices, 
which is under serious consideration, but not an abolition of 
the Food for Peace law or the appropriation level, or the 
expertise that Food for Peace has in food security. People 
think that all the Food for Peace staff does is ship food out. 
That is just not true. They are experts in nutrition. They are 
experts in the balance you need when you feed people. You can't 
just feed them all grain. You have to give them fat in the form 
of vegetable oil. You also have the give them protein in the 
form of beans, and you have to monitor that. You have to have 
set up systems for monitoring this to make sure that the food 
is getting where it is supposed to get. So that expertise 
cannot be lost. And so, I strongly support the continuation of 
the Food for Peace account, the Food for Peace program, but 
believe it should be more flexible.
    Let me just add one piece of empirical evidence we have. 
Dan Honig is a young academic at SAIS, the Johns Hopkins School 
of Advanced International Studies here in DC. He has just come 
out with a book that studied 10,000 aid projects from nine 
different aid agencies, including USAID, DFID, the British aid 
agency, and he asked the question: Those which are highly 
centralized in their headquarters versus those that are highly 
decentralized, what is the failure rate of the programs? And he 
concludes that particularly in unstable and rapid changing 
circumstances, which is certainly the case in disaster 
response, that the failure rate increases dramatically if the 
decisions are made in the capital or the headquarters, and if 
they are highly decentralized and you give maximum flexibility 
to the offices in the field, you have a much higher success 
rate. So we now have enormous empirical research to support 
what seems to be common sense. Sometimes common sense can't be 
proved. In this case, we can prove it.
    Mr. Engel. Thank you. Dr. Lentz?
    Ms. Lentz. I would agree that the Food for Peace program 
should be maintained. I think Mr. Natsios covered it really 
well.
    Mr. Engel. Thank you. Mr. Glickman?
    Mr. Glickman. And I would add McGovern-Dole to that, as 
well. That should be maintained. But here is the problem: There 
probably are some bureaucratic problems in terms of 
implementation. You talk to the NGOs, and they really have to 
go through a lot of bureaucratic gobbledygook to figure out 
which account they are going into and which they are not. But 
if this were offered without a 29 percent reduction in money I 
might be willing to sit down and talk to them about some of 
these changes, but the elimination of Food for Peace and 
McGovern-Dole and others, frankly, is just a way to reduce the 
amount of money we spend in those areas. So that is one of the 
real reasons why I wouldn't support it.
    Mr. Engel. I agree with you, and that is why I am so 
worried about it. Mr. Glickman, let me ask you this: Many would 
argue that the U.S. comparative advantage in responding to 
international food needs is through its ability to produce an 
abundant food supply. When America provides homegrown food, it 
is supporting the U.S. farmer, as well as U.S. food producers, 
processors, and shippers, and yet, in-kind food aid as we have 
heard here, is relatively slow to arrive and costly when 
compared with cash-based alternatives. So in your view, what is 
the appropriate balance here? What is the appropriate balance 
between in-kind and cash-based food assistance?
    Mr. Glickman. I think it depends on the nature of the 
purpose of where the food is going. So if it is dealing with a 
typhoon or an earthquake, the majority probably ought to be in 
the form of in-kind commodities. Just you got to get the food 
there as quickly as possible, and it still takes too long to 
get there. But if you are trying to build local economies or if 
you have refugee camps, like the Ethiopian camps, or the camps 
in Lebanon, and, of course, a lot of people in Jordan actually 
live in Amman. There are several hundred thousand people there, 
and they get most of their food through the voucher, the EBT. 
Then you almost have to go the way of using local purchases or 
EBT cards, that kind of thing. So it is just the whole thing 
you have got to be flexible with it. I think the American 
farmers want to help feed the world, and we provide the 
commodities to do that, but I think that more American farmers 
are realizing that there are many ways to skin this cat, not 
just one way.
    Mr. Engel. Thank you. Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Engel. Next in the queue is 
Tom Marino of Pennsylvania.
    Mr. Marino. Thank you, Chairman. Good morning, and thank 
you for being here. I would like to start with Secretary 
Glickman. When U.S. international food aid programs were first 
designed 64 years ago, surplus agricultural commodities 
threatened to destabilize food prices, and negatively impact 
American farmers. Today, food prices are high, and exports of 
U.S. agricultural commodities are booming, exceeding the USDA's 
own forecast in fiscal year 2016. Food aid represents less than 
one-tenth of a percent of U.S. agricultural production. Reforms 
that this committee will be asked to consider would eliminate 
the requirement, but not the option, for all food aid to be 
procured in and shipped from the United States.
    Mr. Secretary, how would a proposal to relax U.S. purchase 
requirements impact American farmers, and to what degree are 
American farmers dependent on U.S. food aid programs? I come 
from a very rural agricultural district.
    Mr. Glickman. Yes. You know, the biggest part of our 
exports in the world are in what you would call the row crop 
commodities, wheat, corn, cotton to some extent, rice, soy 
beans, and right now, actually, agriculture prices have taken a 
bit of a tumble during the last year or so in part because of 
world economic conditions and, in part, because of surpluses. 
Over the years, most farmers have supported these programs 
largely because they provided an avenue, although a small 
avenue, because we actually sell way more in these products 
than we give away. This is a huge part of an American farmer's 
income is the sale of these products.
    But I guess I would answer your question this way: A very, 
very small portion of what an American farmer produces actually 
goes for food assistance. But large enough that, and especially 
the countries in Africa that within the next 10 or 15 years, 
may be able to buy 20, 25 percent of their products from us. So 
this is more of an investment in the future as much as it is an 
immediate need. We don't want to lose those markets, and the 
best way to get those markets is to build local agricultural 
infrastructure and economies and as they grow, they begin to 
buy more stuff from us. That is a longer-term strategy, but 
that is the best answer I can give you.
    Mr. Marino. What arguments would you make to farmers in 
agribusiness to convince them that the United States should 
substantially reform the way in which it provides food aid? And 
believe it or not, I have my farmers ask me what is going to 
happen to my farm when changes are made and how can we survive?
    Mr. Glickman. Well, again, we don't want to do anything to 
jeopardize our global sales, because that is the big elephant 
is the ability to sell our agricultural commodities overseas, 
and that gets into a lot of other issues, like trade 
agreements, which is not part of this discussion. But that is 
far more important to farm income right now than the 
humanitarian relief that we provide.
    But what I would tell farmers is that the big growth 
regions in the world are in the developing world. Africa will 
produce $1 trillion worth of agriculture commodities and crops 
within the next 5 to 10 years. I mean, that is where the growth 
is, and the growth is in the developing world. And the more 
business we do with them the better we are, and when they 
suffer, our ability to help alleviate their suffering builds 
trust.
    I think Andrew Natsios talked about branding, and when you 
deliver, when it is commodities, you deliver that aid with the 
USAID, what was it?
    Mr. Natsios. Logo.
    Mr. Glickman. Logo on it, or even on the EBT cards, or the 
other forms that you provide electronically it says, ``product 
of the United States of America.''
    Mr. Marino. I would like to quickly hit two other areas. I 
have been to Africa, the continent of Africa, Liberia, Sierra 
Leone, Ghana, I see what it is like. I have been with the 
chairman on several trips, and the things that we have seen 
were just heartbreaking. But we also heard that the militants, 
there are groups of militants that confiscate, steal this food 
from where it is supposed to go. To what degree is that 
happening, and what are we doing about it? Anyone?
    Mr. Natsios. Well, I have been managing off and on these 
programs for 28 years, and security particularly in unstable 
regions of the world, which is the majority of--75 percent of 
this food goes for humanitarian relief and in emergencies, and 
it is not in natural disasters. It is almost all in famines and 
civil wars.
    Mr. Marino. Agreed.
    Mr. Natsios. We did a study when I was OFDA director in 
USAID 25 years ago, we asked the question, the previous 25 
years, how did people die in disasters? Seventy-five percent of 
the people who died in disasters died from famines or civil 
wars. Seventy-five percent. Not in natural disasters. So our 
program is focused on food security for that reason.
    Now, how do you deal with the issue of security if you 
don't have American troops there, or U.N. troops to protect the 
food aid? Well, that is the problem. The reason I support going 
to the use of cash cards in unstable situations is you can't 
tell who has a cash card and who doesn't. But you can tell who 
has a bag of food and who doesn't. The bag is pretty big. It is 
a giant bull's-eye for anybody with a gun. And if you have a 
food truck going down and it is an unstable area, guess what 
they attack? A person--how do you know who has a cash card?
    Chairman Royce. Okay. Mr. Brad Sherman of California.
    Mr. Sherman. No one can quibble that we need flexibility, 
especially when time is of the essence, and if the goal was the 
cheapest calorie per cents measure, we wouldn't have a Food for 
Peace program. We might keep the staff. We would have a ``Money 
for Peace program.'' We would tell the bureaucracy you get so 
much money, provide as many calories as you can, as many 
protein grams as you can to as many people as you can. This is 
close to what the President is proposing. He says, let's 
eliminate the Food for Peace program and move the money to 
situations where the bureaucracy is free. And what that does is 
it destroys many elements over time of the support for U.S. 
foreign aid.
    We already have authorized the ``Money for Peace program.'' 
We get dozens of programs that provide U.S. money to poor 
people, or people who are suffering for a variety of reasons. 
We have basically one Food for Peace program, which would have 
the support of American agriculture if the advocates of the 
program weren't busy telling farmers that it was unimportant to 
American agriculture. And now we are going to make it utterly 
unimportant, or less important to American agriculture. It has 
the support of the cargo industry, or an element of it, and the 
many millions of Americans who dream and honor the U.S. 
merchant marine and remember how important that was in the 
past, so we lose the support of those who are advocates of 
dealing with the trade deficit because now all the money is 
part of the trade deficit. We lose the support of those who are 
for agriculture by telling them it is unimportant, or by making 
it unimportant. We lose the support of those who are in favor 
of a strong U.S. Merchant Marine. And we rely exclusively on 
whatever political support we have from those who want to feed 
those who would otherwise starve, perhaps even die.
    And I wonder whether it is right to say that it is clear 
that these restrictions cost money. Do they also generate 
money? I almost feel like we should be the witnesses and you 
should be asking the questions. You are strong advocates of 
feeding those who are hungry. But actually, we should have some 
appropriators here, and see whether the cost is more than made 
up by the political support.
    But I was on the trip that the chairman references where it 
was important to have the flag on the bag. There is something 
very symbolic to the American people to say here we are, pose 
for a picture, bag of American food. And I think if we were 
sitting there posing with an EBT card where people were buying 
Australian grain, I am not sure that that would have built the 
support in the United States, but what is even more important 
is the image to those who receive the aid.
    Mr. Glickman, or Secretary Glickman, you have been talking 
about branding. The Australians provided aid, we provided aid. 
They had their flags on their bag. I presume we had our flag on 
our bag. How do we use some sort of debit card, put a flag on 
the card, but what if that card is used to buy grain from a 
variety of different sources. It could be recharged different 
ways. It may not even be a card, it may be on a phone. How do 
you brand American aid--how do you put a flag on a bag if there 
is no bag?
    Mr. Glickman. Let me just give you a couple things. Nobody 
is talking about getting rid of the cash program, period. We 
are just saying that in some cases it doesn't work very well, 
it can't get the food there fast enough.
    Mr. Sherman. Oh, yes. Clearly the only argument here is the 
degree of flexibility.
    Mr. Glickman. That is right.
    Mr. Sherman. Some have put forward the argument, Hey, you 
can be 20, 30 percent more effective if you just eliminate all 
these restrictions with a possible exception of vegetable oil 
shipped on foreign flag vessels.
    Mr. Glickman. But what is encouraging is when I saw this 
op-ed in the Nashville Tennessean, you had the head of the 
largest farm organization in the United States joined with two 
very senior Senators who are involved in humanitarian efforts 
to say flexibility is good, and we as farmers can support that 
flexibility.
    The other thing I would just mention is the U.N. food 
program estimates that they are not able to fund one-third of 
the needs for famine and humanitarian relief every year. The 
United States is the largest funder in the world food program. 
And much of that is going to continue to be cash, and the 
better we brand it, the better we are. And so all I can say is 
that----
    Mr. Sherman. Secretary Glickman, I asked a question about 
branding.
    Mr. Glickman. You did.
    Mr. Sherman. I know I said a lot of other things you would 
like to respond to, but I am already on overtime. Can we have 
an answer on branding issues?
    Mr. Natsios. Yes. I put the branding system in place when I 
was USAID Administrator in 2003 because of the war on terror, 
and we had to make it clear this was U.S. purchased food. 
Locally purchased, not U.S. food. There you see, ``USAID from 
the American people.'' So the locally purchased food still has 
the USAID brand on it, not just the U.S. shipped food. And I 
might add, all of those cash cards----
    Mr. Sherman. We were talking about the EBT cards, what if 
we are not----
    Mr. Natsios. They also have the USAID logo. From the 
American people on each one of the cards.
    Mr. Sherman. Then you have to have a separate card--if you 
are getting aid both from Australia and the United States you 
would have one card from one country and another card from 
another country.
    Mr. Natsios. Well, the way we do it in the U.S. Government, 
we pay for the card, we put our brand on it, it is clear. Every 
time they use that card, they see U.S.
    Chairman Royce. And just to clarify, the flag on the bag 
that we saw when we were in the Philippines when we were 
assisting there, that was locally purchased food from the 
Philippines that was in that bag.
    Mr. Natsios. And let me just add one thing to make clear. I 
completely agree with Secretary Glickman's comments on these 
budget cuts. You cannot delegate to the States or 
municipalities--I am a Republican, which I normally, in 
domestic programs, support--you cannot delegate American 
foreign policy, and you cannot privatize it. Cutting $9 billion 
out of the 150 account is a terrible idea. I do not support it, 
and I wish the administration would stop doing that.
    Mr. Sherman. Amen.
    Chairman Royce. Okay. So we go to Mr. Ted Yoho of Florida.
    Mr. Yoho. Thank you, Mr. Chairman. I appreciate all three 
of you being here and your patience. Mr. Natsios, you were 
talking about America losing its hegemony in the world, and I 
think that is something that is going to continue. 
Unfortunately, we are going through a tectonic shift in world 
powers that we haven't seen the likes since World War II, and I 
think that is one of the reasons we are seeing the amount of 
refugees that we are seeing.
    Saying that, with the budget restraints that we are seeing 
as a Nation, all you have to do is look at what has gone on 
since September with the six resolutions, continuing 
resolutions, we are facing severe budgetary constraints, and we 
are going to continue, and they are going to worsen in this 
country. Therefore, how do we tighten up the program to make it 
more beneficial, and if you look at the different agencies and 
departments giving out food aid, or some form of foreign aid, 
we have to streamline this. And so my question to you is how 
well are we coordinating with other countries when there is an 
emergency famine? I agree we have to respond to that. And I 
came up here to get rid of foreign aid, but I have become more 
knowledgeable after 5\1/2\ years here that I agree with General 
Mattis. We have to use a certain amount, but we have to use it 
more effectively. So how well do we coordinate with other 
nations so that we are not duplicating efforts? Is that going 
on now?
    Mr. Natsios. If I could, we have been coordinating better, 
actually, in the emergency area than any other area of foreign 
aid, and we have been doing it for three decades now. The 
evidence we have for this is in a new book written by a good 
friend of mine, Alex de Waal, a British scholar who teaches at 
Tufts. It is called ``Mass Starvation.'' And he looks at a 
number of people who have died since 1870 from starvation, and 
he goes through that 110-year period. And he concludes that 
since 1980, there has been a dramatic drop in the number of 
people who die of starvation. And he said the reason for this 
in part is the growth of the world economy, globalization, 
which everybody is attacking now, and the second reason is the 
emergency response system. Even though it has got its 
weaknesses, it is actually working. Now, we have a meeting--not 
``we,'' I am not in office anymore. The emergency managers from 
Europe, Canada, the United States, Australia, and Japan meet on 
a regular basis, and they will say, look, the United States can 
put more money in Liberia, not so much in Sierra Leone because 
of the historic relationship. The British say, no, we will do 
Sierra Leone if you do Liberia.
    Mr. Yoho. All right, but we are talking about money, but 
what about the coordinating of the efforts like, all right, you 
guys bring this to the table, we will bring this. Is someone 
coordinating this?
    Mr. Natsios. Yes, that is exactly what goes on.
    Mr. Yoho. Secretary Glickman?
    Mr. Glickman. First of all, let me tell you we have a great 
new head of the World Food Program, David Beasley, the former 
Governor of South Carolina.
    Mr. Yoho. Yes, I know him. I met with him.
    Mr. Glickman. He is outstanding. And you talk about a real 
genuine humanitarian, and this is not to castigate anything on 
previous WFP directors, but he cares very much about it, 
because most of this food aid is run through the World Food 
Program, the U.N. The U.N. is very bureaucratic. You talk about 
bureaucracy in the United States.
    Mr. Yoho. That is why I say, how can we do it better?
    Mr. Glickman. His job, his charge is to try to reduce some 
of this effort, and it makes it hard for the NGO community to 
be honest with you because they have to deal with different 
accounts in different countries, but my judgment is that based 
on my discussions with him, he is committed to do exactly what 
you are talking about, and that is better management.
    Mr. Yoho. We have had several discussions with them. In 
fact, we are introducing the BUILD Act, which is Better 
Utilization of Investments Leading to Development--it will be 
coming out in near future--to streamline foreign aid. But then 
we have the emergencies of famine.
    With the McGovern-Dole, we hear a lot of criticism of that, 
and with the austerity measures, the President, in his budget, 
was saying that it is an ineffective program. The school 
program, lunch programs. Do we have numbers to show what the 
results of those have been since 2002 when that program came 
out? Can we justify and say, ``Since we started this, these are 
the results''?
    I will give you an example. With GAVI, with Bill Gates, 
when they go in and vaccinate in countries, what they have seen 
is there is less money going for sickness, for the treatment of 
sickness because they have prevented it, and crime has gone 
down 40 percent. Do we have anything like that that we can say, 
with McGovern-Dole, the school program?
    Mr. Glickman. I don't have anything specific, but I will do 
my best to get you that information.
    Mr. Yoho. If you can get us that information, it will be 
very helpful.
    Mr. Glickman. Yeah, I referenced some of the things, little 
bit in my testimony, about the drop of food insecurity with 
those who were fed in school meals programs, but I will get you 
more.
    Mr. Yoho. And you guys brought up a very important thing. 
If people's bellies are empty, they are hungry, there is 
strife. And you can't have world peace if you don't have food 
security.
    Dr. Lentz, you wanted to throw something in? I am out of 
time.
    Ms. Lentz. I would just to add to that, which is that a 
recent United Nations World Food Program study found that a 1 
percent increase in food insecurity causes a 2 percent increase 
in forced migration.
    Mr. Yoho. Thank you. I am out of time. Thank you, Mr. 
Chair.
    Chairman Royce. Thank you. We will go to Bill Keating of 
Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman. It is great to see 
Andrew Natsios here, my former colleague from the Massachusetts 
House. And his presence reminds me of the wisdom of former and 
the late Congressman Joseph Moakley, who used to say that if a 
person has served three terms of Congress, it might qualify 
them for their first time in the Massachusetts House.
    So welcome, Andrew. I would like to thank the rest of our 
panel. I would note, Mr. Chairman, once again, we have a panel 
and no representative from the Trump administration here on 
these important issues, something I hope we can look forward to 
in the future, although the panel is a terrific one. And I 
think it speaks to the commitment to this program and our 
national effort. You have Mr. Glickman, dating back from the 
Clinton administration; you have Dr. Lentz who is here 
representing the Johnson School of Public Affairs, and you have 
Mr. Natsios who is here with the Bush School of Government. And 
I think it shows the bipartisan nature and commitment to this 
issue, something that I hope we can move forward to, given the 
fact that Food for Peace was eliminated and supplanted, at 
least, in terms of budgetary issues.
    I am also the ranking member on the Foreign Affairs' 
Subcommittee on Terrorism, Nonproliferation, and Trade. And on 
the terrorism aspect, I would like to ask Mr. Glickman, you 
touched on it, I think, with your remarks, but we could really 
rename this, instead of Food for Peace, we could say it is 
``food for national security.'' And I think it would be as apt 
as calling it that.
    With terrorism and the threats that not only affect global 
security, but affect us back here at home, can you tell us of 
the importance of that program in that regard?
    Mr. Glickman. I will give you one example. When I was at 
the Zaatari refugee camp on the Jordanian-Syrian border, I met 
with a family. We sat on the floor. There was nothing, it was 
concrete. The family, the father, he was an automobile 
mechanic. And most of the time we spent with him, he was 
crying. And he had five children, and one of them was a 17-
year-old boy. And this doesn't go exactly to your question, but 
it goes to the issue of refugee status. They had been there for 
5 years in this place.
    And he said, look at my son. He said, You don't think he is 
a candidate for ISIS? He says, there is nothing here for him. 
Zero. Yeah, we have enough food to eat because the U.N.--and 
then I said, And the U.S.--I wanted to make sure I got that in 
there--provides that kind of thing.
    There is no question that poverty, hunger, and economic 
instability is one of the major factors in terrorism in this 
world. I think it is clear.
    Mr. Keating. It really creates a system of incubation for 
terrorism. Would any of the other----
    Mr. Natsios. Let me just to make a comment on this, because 
I think there is a lot of comments being made--not just here, 
but everywhere--and there is a subtlety to this. When people 
feel threatened in their home villages, either from violence, 
from epidemics of disease, most importantly from severe food 
insecurity and famine, they leave, en masse, their villages. 
They don't normally like to do that. They will do it when they 
are desperate and they think they are going to die otherwise. 
When people leave their village, their social hierarchies 
collapse. A large number of them die because they are already 
malnourished along the way. They form refugee camps and 
internally-displaced camps. Every extremist movement that we 
are dealing with started in a refugee--almost all, not every 
single one of them--but where did al-Qaeda start? And where did 
Taliban start? It started in the Afghan refugee camps in 
Pakistan. Why were those camps there? Because of the Russian 
invasion in 1979. Wide-spread food insecurity. There were 
starvation deaths in 1990s in Afghanistan. And those people, 
millions of them, I think there 3 or 4 million Afghan refugees 
in Pakistan that were there for 15 or 20 years. And Ahmed 
Rashid wrote a book called ``The Taliban,'' and he traces the 
development of the Taliban that led to the attack on the United 
States in those camps.
    If we get food quickly and efficiently to the villages 
before people leave, those camps won't form, unless they are 
leaving because of violence. That is a different matter.
    Mr. Keating. Thank you. I enjoyed cutting you off a little 
bit, Andrew, because I never was able to do that in the 
Massachusetts House.
    But Dr. Lentz, quickly, this is important, too. How it gets 
there. If you could touch on the fact--and I think you did this 
with your remarks--quickly. What is the role of women and 
mothers, in terms of the management and disposition of these 
resources. I think that we have found through so many studies, 
the more they are involved in their own country in this regard, 
more of the resources and the food would go to children as 
well. And it gets better dispensed. Can you quickly comment on 
that?
    Ms. Lentz. I think you are absolutely right. I don't think 
this kind of speaks to earlier comments made about the 
importance of Food for Peace's staff in terms of their 
abilities to identify what are the right sets of resources for 
people who are in need. And those needs differ, of course, by 
family members. So children and their moms often have different 
nutritional requirements than the rest of the household.
    So I think that you are exactly right. To kind of care for 
mothers, women who are pregnant, and young children, we need a 
lot of different tools out there, including ready-to-use 
therapeutic foods. We also need to figure out what the best 
ways possible to get them there faster. And I think that you 
are right, when women have some ability to make choices more 
broadly with, say, for example, using vouchers, many folks end 
up trying to buy healthier foods, right. So not necessarily 
more calories, but oftentimes, more nutrient-dense foods, like 
leafy greens and eggs, and things that are really important for 
children's nutrition that, frankly, are very hard to accomplish 
with food aid purchased in the U.S.
    Mr. Keating. Great. Thank you. I am over my time. And I 
yield back, Mr. Chairman.
    Chairman Royce. To respond, though, if I could, Mr. 
Keating, you mentioned the Secretary of State. He will be here 
in 2 weeks, on the 27th. And the week after, or at least March 
7th, we will have USAID Director Mark Green here. And they just 
presented the budget, so that is why they are not here today. 
But I think this was a good forum here today, that we took the 
opportunity for some very experienced presenters, or witnesses, 
here.
    We now go to Adam Kinzinger from Illinois.
    Mr. Kinzinger. Thank you, Mr. Chairman. And I will say, 
just to say further on that, this administration has actually 
reached out more than I have ever experienced in my 8 years in 
politics. So, but let me just, at the risk of reiterating 
reiterations and piggy-backing and all those annoying terms, I 
want to make the quick point that we have talked about branding 
and the branding issue. I think it is essential to remember 
food as not just a humanitarian tool, which it is and it is 
important, but it is also a tool of national security. It is 
soft power. And we are in the business of figuring out how to 
bring people better lives through great influence of our 
country. And I think that is important to remember.
    I think we all can agree--I will ask this first to the 
Administrator, Mr. Natsios, and then we will go down the line, 
if anybody has answers or thoughts. We can all agree that the 
Syrian conflict has reached epic proportions, in fact, that 
news over the last couple weeks is, I mean, we now have 
basically all the parties of the world fighting over land. Over 
500,000 people are dead, and 50,000 of those are children, 
which people need to continue to let that sink in.
    Last year, I wrote about how hunger is used as a weapon in 
Syria. We see daily instances of these actions by the barbaric 
Assad regime to hold food assistance hostage in order to starve 
the people of Eastern Ghouta. By the way, Russia and Iran bear 
equal responsibility in that, too.
    Furthermore, I fear that if we are not helping these people 
feed their families, as you guys talked about, those 7- and 8-
year-old Syrians in refugee camps, or those besieged in Syrian 
cities, will become easy recruits for terrorists who manipulate 
their hunger and fear. It is very hard to recruit somebody out 
of a village. For instance, a village I went to in Africa, in 
which the United States built a milk co-op and helped them, 
helped the village learn how to feed the cows and produce more 
milk. And they will always remember the United States changed 
their lives. But if you find yourself hopeless in a refugee 
camp, it is really easy for some extremists to come in and tell 
you, the West is at fault for your misery, and you should blow 
yourself up in a cafe. Syria continues to be a difficult place 
to have an impact with food aid.
    Starting with you, Mr. Administrator, if you were advising 
the President, what would you recommend in terms of how we can 
effectively provide food aid to the people that need it while 
not benefiting the Assad regime?
    Mr. Natsios. Well, that is the question, Congressman, that 
is the question. And more even in Syria than almost anywhere 
else because there is so many great powers involved, as you 
pointed out, at the same time. Russia; the United States; Iran 
is involved; Turkey is deeply involved in a destabilizing way, 
in my view. So that is the problem.
    The use of cash cards has been more extensive in Syria than 
almost any other emergency for that reason, because we--the 
United States--did not want the Assad regime or any of the 
groups to hijack the aid effort for their own political 
purposes. And the more chaos there is, the more the risk 
increases for that to happen.
    And so, they have used cash cards, vouchers, and what I 
would call more innovative approaches to relief in Syria 
because they are more immune to manipulation in a highly 
politicized circumstance than traditional food aid. That is not 
the case in other places, but it is particularly the case----
    Mr. Kinzinger. So you would have no further 
recommendations? You think it is going kind of swimmingly?
    Mr. Natsios. Well, I personally supported it a long time 
ago, and signed a letter 7 years ago during the Obama 
administration saying there should be safe havens established--
--
    Mr. Kinzinger. Sure.
    Mr. Natsios [continuing]. And we should provide air cover, 
and we wouldn't have had all this population movement, which is 
a disaster.
    I just want to say--and maybe I shouldn't say it--King 
Abdullah of Jordan, who is an ally of the United States and one 
of my favorite heads of state, Jordan is doing very well, 
surrounded, it is, by chaos.
    Mr. Kinzinger. Sure.
    Mr. Natsios. He said, he told a group of U.S. Senators, 
that Turkey was driving refugees to Europe, pushing them across 
the border, and he used the term ``weaponized refugees.'' And 
the chairman of the Joint Chiefs and the Supreme Allied 
Commander of NATO said the same thing. They are weaponizing--
different powers. Russia is doing the same thing.
    Mr. Kinzinger. Yeah.
    Mr. Natsios. They are trying to destabilize Europe.
    Mr. Kinzinger. I have no doubt that we see what we are and, 
you know--fine, if you are non-interventionalist, I get it, and 
you think America plays no role in the world, that is fine, I 
get that. But there is no doubt that our inaction in Syria is 
extremely responsible for what we are seeing today.
    And, look at this. I mean, it is funny, just to bring up 
the politics of it for a moment. A lot of the times people 
criticize the current administration's actions or lack of 
actions, or whatever. We are in this situation in Syria because 
we were paralyzed and didn't do anything. And now you have 
every major power of the world trying to gain something in 
Syria, and we end up having to defend our allies, and in the 
process, kill many, many Russian mercenaries, which, I think, 
Vladimir Putin has been notoriously quiet on. So I would be 
curious as to what his thoughts were on that and why they were 
there.
    I am sure, you don't leave Russia as a mercenary without 
some kind of tacit approval. But I digress. I had more 
questions, but we got on to the Syria issue, which I am 
especially passionate about.
    So Mr. Chairman, I will yield back.
    Mr. Glickman. Mr. Chairman, can I make just a comment? 
First of all, Congressman, your leadership is well known in 
this area.
    I want to reinforce what Andrew said about Jordan. One-
fourth of the people in Jordan are Syrian----
    Mr. Kinzinger. That is right.
    Mr. Glickman [continuing]. Syrian refugees. They have 
inundated the country because there is no other place to go. A 
lot of them are in refugee camps. Most of them are in the 
cities. And I can't answer your question about Syria, but I can 
and say this: If we don't understand and help the Jordanians 
deal with this problem, we will lose one of our closest 
friends, not only in the region, but in the world.
    Mr. Kinzinger. I agree.
    Mr. Glickman. They are key to this.
    Mr. Kinzinger. The King made a point to us. He said, I 
think it was, at that time, he said, ``It is the equivalent of 
all of the nation of Canada moving into the United States 
without a job.'' We like the Canadians, but we want them to 
have jobs. Thank you, Mr. Chairman.
    Mr. Natsios. Mr. Chairman, could I just----
    Chairman Royce. It would actually be twice that percentage.
    Mr. Kinzinger. Yeah, that is right. Yeah.
    Mr. Natsios. Could I just add one thing?
    Chairman Royce. Mr. Natsios.
    Mr. Natsios. I am Antiochian Orthodox Christian, and our 
patriarch is in Damascus. One of our archbishops was kidnapped 
by the terrorists, and one of our bishops. And we have not 
heard from them in 3 years.
    The largest number of people killed in Syria, 
disproportionate to any other, are Antioch, are my church 
members. And we get terrible stories from our priests in the 
villages about the atrocities being committed against Orthodox 
Christians, and also, eastern right Catholics as well. But 
there is a particular focus on attacking the eastern church 
that has been there for 2,000 years, so I have to say, this is 
a very personal thing for me.
    And I might add, when people attack Arabs in the United 
States, they make these comments, a lot of Arabs are 
Christians, and they have been for 2,000 years. And so, I get 
upset when people make these generalizations. It is 
inappropriate. The fact of the matter is, the great bulk of 
people who are getting killed are, in fact, Christians in 
Syria, but also, many of the minority traditions of Islam are 
also being attacked and being victimized. And you know that 
from your own experience. It is horrendous, the atrocities that 
have been committed.
    Mr. Kinzinger. Thank you.
    Chairman Royce. We go now to David Cicilline of Rhode 
Island.
    Mr. Cicilline. Thank you, Mr. Chairman. I want to thank you 
for this hearing on this very important issue that is quite 
literally a matter of life and death. Without proper access to 
food and nutrition, children cannot attend school, men and 
women cannot work, and families cannot feed their children. And 
we all understand the conflict and national security challenges 
that flow from food insecurity. And that is why I am very proud 
that the United States has been the largest supplier of food 
aid in the world, and committed to ensuring that we continue to 
lead the world in efforts to ease hunger and establish self-
sufficiency and food security.
    And like many of my colleagues, I am deeply troubled about 
the President's budget, which really abandons that role. I am 
also particularly proud that in Rhode Island, we are helping to 
lead this effort. I was happy to hear Secretary Glickman talk 
about Plumpy'Nut. And I really want to recognize the work of 
Edesia Nutrition, a wonderful food aid and global nutrition 
nonprofit based in my home State. It uses an innovative and 
targeted approach to ensuring that populations around the world 
have access to healthy, nutritional food by producing and 
introducing into local markets ready-to-use therapeutic and 
supplementary foods.
    Each year, millions of their miracle packets leave Edesia's 
Rhode Island factory, and are delivered by large humanitarian 
organizations such as UNICEF, the World Food Program and USAID 
into the hands of malnourished children all over the world in 
some of the hardest-to-reach places, in most inhospitable 
places on the planet. And their incredible state-of-the-art 
factory is this incredible example of a public-private 
partnership that is producing peanut, milk-based, ready-to-use 
supplemental and therapeutic foods with ingredients sourced 
from over 15 States.
    These products are really saving the lives of millions of 
starving children around the world, at the same time, providing 
good paying jobs to middle class workers in our State, and as 
well as refugees who have settled in America. So I just want to 
acknowledge their work and say how proud I am of them.
    There are two things that I think that their presence in 
Rhode Island has kind of focused my attention on. And the first 
is, as we talked about food reform, food aid reform, it seems 
to me that one of the things we have to be careful about is 
this sort of U.S. manufactured-based food aid that Edesia 
represents and others, that if we ship too much to just cash, 
we lose the whole kind of stakeholder advocacy that has been so 
critical to protecting U.S. food aid and our leadership role in 
that. And I think it becomes very easy if it is just a number 
in a budget, a lot easier to cut, and, maybe someday, 
eliminate. I just wonder what your thoughts are on that?
    And secondly, with particularly specialized nutritional 
products that were created by research that was funded by USDA 
and USAID, that really meet the specific nutritional needs in 
some of the most fragile populations, children under 5 and 
pregnant mothers, nursing mothers, for example.There are some 
local and regional producers who can make these types of 
products, but they don't have the capacity to reach all the 
areas of need, and particularly in the times of acute crisis.
    So I wonder how we preserve this important capacity that it 
makes the food supplement that arrives really effective and 
that may not be capable of being generated in the host country. 
Do we do a carveout? Do we do a percentage? But how do we 
protect that so we don't lose both the advocacy and the very 
specialized capability of places like Edesia that are making a 
real difference?
    Mr. Natsios. Could I just comment on that? First, the 
nutritional supplements are actually not funded by Food for 
Peace. The corn-soy blend is, but a lot of the intensive 
feeding is funded by the Office of Foreign Disaster Assistance. 
It is an entire budget. It is the 150 account as opposed to the 
farm bill.
    We hear this argument made. And the advocacy groups, the 
shipping companies keep making it, that the----
    Mr. Cicilline. No, no, I am not talking about the shipping 
companies.
    Mr. Natsios. No, no, I understand.
    Mr. Cicilline. I am talking about the production.
    Mr. Natsios. I know. I know. But let's just talk about the 
farmers. Okay. They are saying, without us, there would be no 
Food for Peace. That is just not true. The office----
    Mr. Cicilline. With all due respect, that is not my 
question. I have limited time. I am talking about specialized 
products that are produced----
    Mr. Natsios. Right.
    Mr. Cicilline. That are manufactured in the U.S.
    Mr. Natsios. Those are not paid for, for the most part, by 
Food for Peace. They are paid for by the Office of the Foreign 
Disaster Assistance that has a $2 billion budget because of the 
generosity of this Congress, I might add. By the way, I ran 
that office 30 years ago, and it had a $20 million budget with 
45 staff. It has 700 staff and a $2 billion budget. And the 
food that they do--they don't do food, that is the Food for 
Peace; however, nutritional supplements are done by OFDA. The 
corn-soy blend, which you may also be talking about, that is 
funded by Food for Peace.
    So it is a careful arrangement, but it is not entirely done 
by Food for Peace, is what I am saying to you.
    Mr. Cicilline. Mr. Glickman?
    Mr. Glickman. A couple things. I think your point about 
political support is interesting. As you know, only 1 percent 
of the budget is in foreign assistance, but it is still a chore 
to get people to support it. I understand that. And that is why 
it is so important to have farmers and rangers in this country 
continue to support these programs. And I work on that as much 
as I possibly can.
    With respect to the issue of the specialty foods, one 
interesting phenomenon is, Africa now has the highest rate 
increase of noncommunicable diseases in the world. So what are 
those? Diabetes, hypertension, cardiac disease. And I mean, we 
know about of the pandemics and the communicable disease. And a 
lot of studies show it has to do with what they eat, and that 
their diets are not fully enriched and don't contain the broad 
variety of nutrients that are needed. And so I now see the 
World Food Program is beginning to get much more interested in 
the subject.
    I will go back to David Beasley, who is the chairman. And 
you are going to have Mark Green, the head of USAID. You ought 
to ask him the same question. It is really important.
    Mr. Cicilline. Can I just ask one last question? On the 
branding, do we brand also in the native language? The only 
thing I remember when I was at Zaatari in Jordan, there was 
some language about a gift from the people of the United 
States. But my guess is that 98 percent of the people in that 
camp did not speak English.
    Do we also do it in the native language of the recipient?
    Mr. Natsios. Well, I can tell you what the rules say that I 
put in place when I was Administrator. And it is in the Federal 
Acquisition Regulations, written down. And it says it must be 
in the local language. I have noted, however, that that is not 
always what is done.
    Mr. Cicilline. As have I.
    Mr. Natsios. They usually keep the words in English. 
However, the red, white and blue and the ``U.S.'' is pretty 
clear, even to people who can't read where it comes from. And I 
will give you an example how we know that. After the tsunami in 
the Indian ocean in December 2004, the end of December, just 
after Christmas, 125,000 people were killed in Aceh. We ran a 
huge relief effort. And we branded everything with the brand 
that I showed you earlier.
    We didn't do it for any other reason than we just wanted it 
on the aid to show what we did. Bin Laden's poll ratings in the 
largest Muslim country in the world, in Indonesia, were 58 
percent approval rating. The U.S. had a 28 percent approval 
rating, before the tsunami. Four months later, according to 
five different polls in five different newspapers, bin Laden's 
polls collapsed from 58 percent to 26 percent, and the U.S. 
went up from 28 percent to 63 percent approval rating.
    The CIA told me bin Laden was extremely upset that his poll 
ratings collapsed. All the newspapers in Indonesia said, where 
is our friend bin Laden? He is our friend. We didn't like the 
United States, but who is helping us in our time of need, the 
United States is. They are everywhere.
    So if you think this doesn't have an effect, let me tell 
you, it does. And President Yudhoyono, who is the President of 
Indonesia, said privately, I am an ally of the United States, 
but sometimes it is kind of hard to be supportive of you guys, 
since you are not very popular here. After the tsunami, it was 
easy for him to associate with the United States.
    Chairman Royce. Ann Wagner of Missouri.
    Mrs. Wagner. I thank you, Mr. Chairman, for hosting this 
important hearing on international food aid. As noted, 
America's generosity to victims of disasters, atrocities and 
poverty across the world, has been an integral part of our 
foreign policy, and certainly, our national security and such. 
Like all Federal programs, our food aid programs should be 
smart, they should be efficient, and they should be 
streamlined. Our food programs require commonsense reforms, as 
I think noted today, that ensure that food assistance 
complements local markets, finds the right balance between U.S. 
commodities and market-based programs, like vouchers and 
electronic transfers and end the unnecessary losses through 
modernization. We all have been looking for ways, as a 
committee, to better support Rohingya victims of ethnic 
cleansing in Burma. This entire conflict is man-made, and has 
resulted in the murders of so many innocent men, women, and 
children.
    Just one of the tragedies of the past few years has been 
the food aid has been recurrently suspended due to safety 
concerns and because the government and military have blocked 
access to the Rakhine state. Last year, the Office of Food for 
Peace provided $13 million for atrocity victims and IDPs. My 
understanding is that much of this funding went to locally and 
regionally-purchased food, as well as cash transfers for food.
    Mr. Natsios, what unique challenges do our food aid 
programs face in areas that are experiencing mass atrocity 
crimes, and how can we improve the food assistance in those 
areas?
    Mr. Natsios. Well, there are a number of things. One, it is 
very hard to put, because of the very strict rules of the State 
Department Diplomatic Security Office that controls the 
security for the Embassy and the aid missions, to put officers 
in the middle of these emergencies where they could get 
kidnapped and killed. And so, we have DART teams, USAID has 
what is called a DART team, Disaster Assistant Response Team, 
which actually was put in place when I was the OFDA director, 
28 years ago. The first DART teams were deployed when I was 
director in 1989, actually. And so, they are very effective.
    But now, because of the level of atrocities, Diplomatic 
Security is very reluctant to allow them to go in. So that is 
the first challenge, is we have to have officers on the ground. 
And our system is highly decentralized. The DART team has 
enormous authority in the field to make quick decisions, almost 
overnight. They have a notwithstanding clause in Federal law, 
which means they don't have to go through the Federal 
procurement laws. All the regulations, all the bureaucracy, 
OFDA is exempt, so is Food for Peace from those rules, that is 
why they are so effective. They don't have to comply with all 
these rules.
    Third, there is a huge problem in security where warlords 
will prey on relief groups, NGOs, the U.N., and attempt to 
divert resources. And so, the third big challenge is to make 
sure that these resources get where they are going. And not so 
much as get where they are going, to make sure they stay there.
    So what happens, sometimes as you leave the village, and 
the extremists group will go in and then take the food or 
whatever we have given them.
    Mrs. Wagner. Thank you, Mr. Natsios. I have very limited 
time.
    Dr. Lentz, how do you think cash transfers have worked in 
Burma? Are we using cash transfers because vouchers or 
electronic transfer system is untenable? And is the cash 
transfer system more common in these conflict areas, you think?
    Ms. Lentz. That is a great question. And I can't speak 
directly to the case of Burma. I can say that as a former 
Fulbrighter to Bangladesh, I think thinking about this 
situation of their refugees is something near and dear to my 
heart, and I would just suggest that I think with the monsoons 
coming, things are going to get a lot worse before they get 
better.
    Mrs. Wagner. And Mr. Glickman, or Mr. Natsios, 9 percent of 
our Burma Food for Peace assistance was through in-kind food 
aid in fiscal year 2017. What is the process for determining 
what percentage of aid in any particular country is given 
through U.S. commodity versus vouchers for instance? Perhaps, 
Mr. Natsios, you can----
    Mr. Natsios. It is done based on the unique 
characteristics, each emergency, which are all different. So 
these are the factors. There is actually a manual on how to do 
this that CARE developed under contract by Food for Peace. It 
is called ``the decision-making tree.'' And you go through a 
set of processes, and it will tell you how much to put in each 
area.
    And the way it is done is how many people are in displaced 
camps or refugee camps which are secure enough so that you can 
send in the commodities and they can be properly distributed. 
Or, if people are on the move and things are very chaotic and 
you don't have security, then a cash card is more appropriate 
if you have ATM machines around.
    What they are doing in South Sudan, which I did not know 
until recently, is they are putting ATM machines on the back of 
trucks, aid trucks, and they give the cash cards out. And then 
they drive the truck through the villages. And the people come 
in and put the cash card, and get the cash, go buy the food, 
because southern Sudan is not exactly a highly-developed area 
with a huge system of ATM machines. But you would be surprised 
in the area--and by the way, people also use their cell phones, 
can do cash transfers.
    A million people in South Sudan within 2 years after peace 
broke out--I wish it could break out again--had cell phones 
when there were none before. Cell phones are a very, very 
useful way of doing cash transfers as well. And people have, 
surprisingly, they have accounts that they can use----
    Mrs. Wagner. And probably a much more safe avenue, also.
    Mr. Natsios. That is correct.
    Mrs. Wagner. Well, I appreciate your testimony.
    Mr. Glickman. I just would add one other thing.
    Mrs. Wagner. Yes, Mr. Glickman.
    Mr. Glickman. One, is that I am glad you raised the issue 
of Burma----
    Mrs. Wagner. Yes.
    Mr. Glickman [continuing]. Because it is a gigantic issue 
and it doesn't get the attention----
    Mrs. Wagner. I feel the same way.
    Mr. Glickman [continuing]. Because it is not a political 
hotspot of the world. And for people who work for Save the 
Children just died in Afghanistan. And some of the more 
vulnerable people in the world are the NGO people that are on 
the ground doing the kind of things that you are talking about. 
And I think this is a question you ought to probably ask Mark 
Green when he comes here, because he is probably pretty current 
on how you deal with these very dangerous situations.
    Chairman Royce. Secretary Glickman, if I could just 
intercede here. The circumstance, the reason, the in-kind food 
has to be taken into the camps is because basically, these are 
concentration camps with razor wire around them. The 
individuals inside are not permitted to engage in the market. 
So they will literally starve to death if we are not bringing 
that food into the camps. And at the same time, those reporters 
locally who report on the conditions on the ground that the 
Rohingya population face, they can face, as we saw this week, 
up to 14 years in prison for simply writing about the 
circumstances.
    So hence, the circumstances in Burma, Ambassador, as to 
why, Ambassador Wagner, we are bringing the food into the camps 
or orchestrating the food to go into the camps.
    We go know to Dr. Ami Bera of California.
    Mr. Bera. Thank you, Mr. Chairman. Before I ask my 
question, I just wanted to reiterate a few things that were 
stated earlier. Under the chairman's leadership, I think we 
have long suspected in Syria that there was specific targeting 
by the Russians to weaponize refugees. And I think that is an 
accurate terminology to drive refugees into Europe and 
destabilize refugees.
    And Secretary Glickman, to your comment, I was in Jordan 
visiting Syrian refugees and visiting some of the camps this 
past summer, and Jordan is under tremendous strain right now. 
Like classroom size, unemployment, and yet, they are one of our 
closest friends. So the importance of finding resolution to the 
Syrian issue is paramount because the other impression I walked 
away with is most of the Syrian refugees did not have a side in 
this civil war. The war found them and drove them out. And they 
would like to return to their homes. Again, a monumental global 
challenge.
    Now to my questions. Mr. Natsios, shifting from Food to 
Peace to Feed the Future, as one of our programs in terms of 
capacity-building, obviously, I think a lot of us are concerned 
about what is going to happen with climate change. We think 
there is going to be increasing water shortages, increasing 
mass migrations. Could you just describe a little bit of Feed 
the Future? How effective it is? What we ought to be thinking 
about in terms of supporting that capacity?
    Mr. Natsios. One of the most successful aid programs in 
history, in the 20th century, was the Green Revolution in Asia, 
which was led by Dr. Norman Borlaug, who won the Noble Peace 
Prize in 1970. He is from Texas A&M, my university. And 
Bourlaug Institute is down the street, and his granddaughter 
works, Julie Borlaug, at the Institute itself.
    So we know it works. It tripled, quadrupled in some cases, 
food production and productivity in Asian countries. There was 
an attempt in 1980s to transfer those lessons to Africa, it did 
not work for a variety of reasons. There weren't enough roads, 
there wasn't enough fertilizer. They are attempting to do that 
again. Not that all of that program is in Africa, but a 
disproportionate amount is, because that is most food-insecure 
area in the world.
    And I am a very big supporter of this program. And I can't 
tell you the data, because I am not running USAID now. I think 
Mark Green would be more appropriate. But I do not support any 
cuts in that account, because I believe the greatest risk we 
face for a world war, and I mean a great power war in the next 
20 or 30 years, is going to be over food. And we are playing 
with fire if we do not recognize that the international food 
system, which is mostly private, if that is disrupted, it will 
drive countries, big powers with big armies to war. And I am 
very worried about it.
    And this Feed the Future program is designed to mitigate 
that, at least for poor countries.
    Mr. Bera. Right. Dr. Lentz, do you want to add anything?
    Ms. Lentz. Thank you. Yeah, I would just add to what Mr. 
Natsios said. To say that food aid can't solve all problems at 
all, right? And so this is where there is a huge role for other 
forms of foreign assistance. And I think it is really difficult 
for programs like Feed the Future, because they are investing 
in long-term solutions, and it takes time, and it is harder to 
see results. But I think that just to echo sort of Mr. Natsios' 
point, it is worth the investment.
    Mr. Bera. Right. Mr. Glickman.
    Mr. Glickman. Just two things: One, there has been some 
evidence of the reduction of stunting in children as a result 
of the Feed the Future program. It is a fairly new program. I 
think the last administration did a better job of targeting it, 
so it doesn't apply to every country in the world. It targeted 
countries, as I mentioned, that in Ethiopia--in my statement--
in Ethiopia, there was a positive metrics on the farmers who 
had participated in Feed the Future versus those who have not. 
But I agree with Mr. Natsios, very important program.
    Mr. Bera. Quick follow-up question. Mr. Natsios, I noticed 
in your bio that you wrote a book on the North Korean famine. 
And a little bit of side question, but we have not talked about 
if there is a conflict in North Korea, the huge humanitarian 
crisis that would be there. And I don't know if, in the 
remaining time I have, if you wanted to touch on how big a 
challenge that would be with the, you know----
    Mr. Natsios. I just wrote an article for Foreign Affairs 
online, the Journal, on this very issue. And suggested that we 
might approach the Chinese to do some planning in the event of 
regime collapse in North Korea. Because it is not as stable a 
regime as people think.
    And I suggested in the article--I wrote it with a colleague 
of mine from South Korea. If you give me your email address, I 
will send you a copy. But it just came out 2 or 3 weeks ago, 
and it suggested that what we need to do is prevent mass 
population movements, because the death rate is frequently 50 
percent of the people, when they leave their villages, they die 
if they are severely food insecure.
    So we can't prevent them from leaving, because that is a 
violation of international humanitarian law, but you can create 
the conditions where people don't want to leave. In other 
words, if you provide the food there--and what I suggest in the 
article, is that two-thirds of the population, I believe, in 
North Korea, lives within 50 miles of either coast--the central 
part of the country is relatively thinly populated. What we 
should be doing is thinking through a plan to move small 
amounts of food to all of the small ports all along the coast, 
because the road system is in terrible condition, they don't 
have enough gas. Even in the event of collapse, it will get 
worse. And so we need a logistics plan that will allow us to 
immediately secure the food system of the country so we don't 
have mass population movements in the event of collapse of the 
regime.
    Chairman Royce. And if I could just clarify, because we did 
have the opportunity to talk to the defector who ran the 
propaganda program, Hwang Jang-yop. Adam Schiff and I had the 
opportunity to interview him after he defected some years ago. 
We asked him about the NGO estimate of 2 million North Koreans 
starving. He said, no, the internal number was 1.9 million. We 
then asked him about the circumstances of that starvation. And 
he said, well, a lot of those were the no-go areas. Those were 
areas where it was questionable whether people were really that 
enthusiastic about the regimes in those areas. And he said, 
what we were doing was putting the money into the nuclear 
weapons program and the support for the military.
    And I think that when we talk about food as a weapon, we 
forget that regimes use it occasionally against their own 
population, especially if they have objectives that are higher 
on their list of things to do than feeding their people.
    So we go to Brian Mast of Florida.
    Mr. Mast. Thank you, Mr. Chairman. I think there were some 
great questions on both sides of the aisle today, great 
analysis by you all. I really enjoyed the hearing. I don't want 
to rehash everything that has already been out there. I just 
have one question, and that is for you, Mr. Natsios.
    And it goes back to the idea of the hegemonic stability 
element of U.S. food aid. And in your opening remarks, you 
basically talked about how you felt the U.S. was not reigning 
anymore, or falling as a hegemonic stability. And I want to 
know, given carte blanche, if you had carte blanche, what would 
you change about the program to make sure that the U.S. reigns, 
in terms of food aid, doing its best possible work, to make the 
U.S. the continually reigning hegemonic stability?
    I disagree with that analysis a little bit, but that is a 
different conversation. What would you change about it to make 
sure that we reign as that in terms of food aid? That is the 
only question that I have.
    Mr. Natsios. I was referring, in terms of hegemonic 
dominance, to military and economic, not to our aid program. We 
are the greatest humanitarian power, and have been since World 
War II, but I would not use the word ``hegemonic.'' And if I 
used the term to describe it or I confused people, I apologize 
because I wouldn't use that. That is a geo-strategic term.
    So what I would do are the three reforms that we have all 
have been advocating: 50 percent of Title 2 for local purchase; 
eliminate modernization to provide cash-for programs, use it 
only for market interventions to stabilize prices; and three, 
exempt the Food for Peace office from the cargo preference law.
    If we did those three things, we would go a long way. And 
we can't have these budget cuts. The budget cuts, to me, don't 
make any sense. They just don't make any sense.
    Mr. Mast. Thank you, sir. I yield back, Mr. Chairman.
    Chairman Royce. Thank you, Congressman. Gerry Connolly of 
Virginia.
    Mr. Connolly. Thank you so much. And thank you all three 
for being here. I spent 10 years on the Senate Foreign 
Relations Committee, and my primary assignment was foreign aid 
authorization. I am proud of the fact that we got the last 
foreign aid authorization bill passed when I was there in 1986, 
and we spent a lot of time on PL 480 working with our 
counterparts on the Agriculture Committee, where I met one, Dan 
Glickman.
    And let me start by asking a question, Mr. Natsios. You 
talked about maybe a shift in interest groups that would 
support aid and food aid. And you have talked about the 
shippers who favor the use of cargo preference. You have 
referred to it as a scandal. So I wonder if you could 
elaborate?
    What is the scandal and how would you characterize this 
shift? Because one of the things I always worry about up here 
is the coalition of support for foreign aid generally is 
fragile. And anything that potentially unravels it makes me a 
little weary because we can get glib about oh, no, no, no. But 
as we just saw, and I welcome your remarks, the President 
zeroed out this entire program, and wants to cut foreign aid by 
a third, which, to me, is a massive retreat on the part of the 
United States.
    But at any rate, I just wanted you, if you could, elaborate 
a little bit on those two things. What is this new coalition of 
support that presumably could have either augment or replace 
the old coalition support, and why is it you think cargo 
preference shippers, what is the scandal involved there?
    Mr. Natsios. The scandal is that 60 percent of the 
companies are not American companies. They are German, Danish, 
and Singapore-based companies that bought an American 
subsidiary as a front. So if we are protecting American 
shipping because we need to control it for national security, 
we don't control it. Other countries do.
    So we are subsidizing foreign shipping companies using the 
Food for Peace account, which is supposed to be for feeding 
hungry people. That is a scandal to me. If you make a national 
security argument, make the national security argument, but 
that is not who is bidding on these contracts. And I might add, 
Food for Peace puts out tenders, bids, for the ships and no one 
answers at all. Or they got one bid. Is that competition?
    I think it is a scandal because it means it is monopoly-
controlled. It means a small number of companies control the 
whole shipping lanes, which means we are very vulnerable, and I 
think that is scandalous.
    Mr. Connolly. Okay. I just want to understand the word, 
because, to me, ``scandal'' involves something illegal.
    Mr. Natsios. No, no, I don't mean scandal----
    Mr. Connolly. Right. You mean, it is a sham.
    Mr. Natsios. It is a sham.
    Mr. Connolly. Right. Got it.
    Mr. Natsios. But also, the other issue is, they are the 
last remaining holdout to reform. The NGOs, the farmers, and 
the shipping companies formed the cartel that protected the--or 
the coalition. I like to use the word ``cartel.'' The NGOs now 
have all dumped out on the cartel. They are now in favor of 
reform. World Vision was the last one.
    Last summer, at a hearing here, I believe, they endorsed 
the reforms, very aggressively. The American Farm Bureau, I 
believe, is one of the largest representatives of American 
farmers. They have just endorsed the reforms. Who does that 
leave? Three foreign shipping companies that are hiding behind 
an American subsidiary trying to say, We want special 
preference, saying there is a national security issue here. And 
there isn't. It is a sham.
    Mr. Connolly. Okay.
    Mr. Natsios. ``Sham'' would be the better term.
    Mr. Connolly. Got it. Because I think ``scandal,'' one 
needs to be a little careful about that word.
    Mr. Natsios. Absolutely.
    Mr. Connolly. I think that implies criminal activity, and I 
don't think that is what you meant. That is why I wanted--thank 
you for clarifying.
    Secretary Glickman, the President's budget cuts foreign 
assistance by a third and eliminates, zeroes out the Food for 
Peace program. Any problem with that?
    Mr. Glickman. Yes, massive problem. I would call that a 
scandal. All right. And as I said, the fact of the matter is 
that your committee has been, and the leadership, recognizing 
we have a 3-tiered stool of diplomacy, development, and 
defense. And the fact of the matter is that funding the State 
Department, USAID and their functions, including the feeding 
programs are a part of those efforts. And they enhance 
America's national security.
    So I find real problem with it. In the past, Congress has 
rejected that. And one other thing, too. And that is, America's 
engagement in the world--this is a signal to the world that we 
do not find it necessary to be as engaged.
    Mr. Connolly. But real quickly.
    Mr. Glickman. Yeah.
    Mr. Connolly. If we zero out the Food for Peace program----
    Mr. Glickman. Yeah.
    Mr. Connolly [continuing]. Does it actually affect people's 
lives? I mean, it is one thing about our prestige, but what 
about the potential recipients who could be at risk if we zero 
that out? Is that a concern?
    Mr. Glickman. Hundreds of thousands of people, if not more, 
would be impacted by that. Millions maybe.
    Mr. Connolly. You agree, Mr. Natsios?
    Mr. Natsios. Absolutely.
    Mr. Connolly. And Dr. Lentz?
    Ms. Lentz. Yes.
    Mr. Connolly. I thank you. My time is up.
    Mr. Garrett [presiding]. I thank the gentleman from 
Virginia. I will tell you all as an aside, that it has been 
something that I laid awake at night, staring at the ceiling, 
wondering if I would ever have the opportunity to chair the 
House Foreign Affairs Committee. I did not know it would be 
today.
    Mr. Connolly. I have laid awake thinking about that 
prospect myself, Mr. Chairman.
    Mr. Garrett. Well, it is a great subject matter that brings 
us together today because it is one where myself and my 
colleague from Northern Virginia have a lot of shared passion. 
I want to sort of scold us collectively for politicizing 
something that shouldn't be political.
    As someone who generally tends to support this 
administration, I am also deeply disappointed in these proposed 
cuts, which I would characterize as draconian and shortsighted. 
Having said that, no one is perfect, and this is why we have 
these hearings. I am hopeful that the administration will 
listen, both to myself and Mr. Connolly, and I apologize in 
advance by way of my line of questioning, which will take the 
form more of soliloquy, perhaps, than questioning.
    It is through learning that we better ourselves. I hesitate 
to contemplate the outcome of a day that I spend without 
learning something. And so it was as a member of this committee 
that I became familiar with the McGovern-Dole school feeding 
program. And the more I learned, the more I fell in love with 
it. And I will tell you why. And this may shock some people who 
think they know me politically, but they don't.
    When you are a subsistence farmer in a Third World nation, 
and you have to do a cost benefit analysis on what happens when 
you send your children and, particularly, your daughters to 
school, versus putting them in the field to grow the food that 
they must eat to survive, then oftentimes, historically, we see 
these children in the field. School feeding provides a break in 
that paradigm which allows for the education of young people, 
and particularly young women, which we can demonstrably show 
leads to a decrease in radicalization, and increase in economic 
development, growth, and opportunity, which ultimately both of 
those things lead to what, I believe, my colleague, Mr. 
Kinzinger, referred to as ``the prevention of someone without 
hope strapping a suicide vest to themselves and taking human 
lives.''
    Now, I worked as a prosecutor for a number of years, and we 
pursued people who preyed on children. And the greater 
satisfaction that I received when we locked these people up was 
knowing that there would be a number of children who were never 
victims because they were locked up.
    There will be terrorists who are never terrorists if they 
have opportunity. It is not the sole responsibility of the 
United States to afford that; however, in the absence of 
leadership, there is a vacuum and power abhors a vacuum. The 
Chinese are more than willing to jump in. And when they do 
these things, they usually do them in a manner such that it 
exploits the local populace, particularly in terms of economic 
opportunity and resources; whereas, historically, we don't.
    So, again, I apologize for the form of my questioning, but 
I would invite each of you to speak to the positive long-term 
and unquantifiable benefits of things like school feeding 
programs that I have elaborated on, in the hopes that people 
who make policies and vote on budgets will listen to what we 
say here today. And perhaps we can nudge this thing back in the 
right direction.
    Mr. Natsios.
    Mr. Natsios. There is another benefit from school feeding 
programs, which is not widely discussed, particularly during 
civil wars and the aftermath. Children need order in their 
lives. Regardless of how much they learn in the school, they 
actually need an ordered day, or they can get into a lot of 
trouble. And in most of these war zones, there are land mines 
everywhere, there are guns everywhere. And so if nothing more 
than to order the day of the children and keep them under adult 
supervision, the schools need to stay open.
    And one way of making sure they go to school, is the 
parents knowing that they are going to get fed a lunch, because 
that means they won't have to feed them at home.
    Mr. Garrett. That is exactly it. And, again, it breaks the 
paradigm that has been destructive historically and helps us 
move forward as a global community. And human lives are human 
lives are human lives. I serve the American people of the fifth 
district of Virginia, but I care about people everywhere, 
regardless of how they look or worship, or what have you.
    Mr. Natsios. Let me give you an example how we use food aid 
to get kids back to school in Afghanistan, particularly girls. 
This is just after we sent the troops in, so this is early 
2002.
    We did two things: We paid the 50,000 teachers. We had no 
cash to pay them. We paid them in vouchers that WFP then gave 
them food for. And I asked the teachers, do you want cash? They 
said, Well, there is no currency in this country because there 
is no government. There hasn't been a government for 15 years. 
And so we would prefer food. We don't know what currency you 
would give us because we could guarantee we can feed our kids. 
So teachers went back to school because they got a food voucher 
from USAID, the from World Food Program.
    Secondly, to get more girls in school, we said, if you send 
your girls to school, at the end of each month, we will give 
you a liter of vegetable oil. Very valuable thing for cooking. 
And there was a substantial increase in girl participation 
because of the vegetable oil program.
    Mr. Garrett. I would ask my colleague, the gentleman from 
California, Mr. Lieu, if he would indulge me for another moment 
to allow Dr. Lentz and Mr. Glickman the opportunity.
    Thank you. I don't want to be hegemonic.
    Dr. Lentz.
    Ms. Lentz. Thank you. I think, Mr. Garrett, what you are 
saying is exactly why I became interested in food aid policy, 
because not only is there a military or is there security 
benefits to the U.S. and I think there is a moral, frankly, for 
me, a moral imperative. I don't want to live in a world where 
people die from hunger, especially when there is things that we 
can do here. And I really hope that many American taxpayers 
agree with me, that this is a huge thing that nobody, nobody 
wants to have stories like Mr. Natsios' about his great uncle. 
I think it is devastating.
    Mr. Garrett. Well, the problem I think--and I appreciate 
that. And the problem is that it is unquantifiable, right? But 
if we make a better tomorrow, then bad things don't happen. And 
it is hard to do an ROI on that, but it is real.
    Mr. Glickman--Ambassador, or Secretary Glickman, 
Congressman Glickman.
    Mr. Glickman. Whatever you want to call me. And I think you 
will be a terrific chairman of this committee one day. I want 
you to know that.
    Mr. Garrett. Well, Ed is retiring, and I have got a whole 
year here.
    Mr. Glickman. A couple of things. You mentioned the issue 
of girls in schools. This is an amazing success story. The fact 
that girls stay in school, they are less likely to be sexually 
abused and demeaned in a variety of ways, and that has been one 
of the success stories. The second thing has to do with high 
nutrition. The program does focus on the nutritional 
components.
    And I was there, in fact, I was in the cabinet room when 
the President brought in Senators Dole and, I believe--
McGovern, and I believe Dole. And this idea came from them. It 
shows you, again, the bipartisan foundation for most of these 
programs. And it grew out of this desire by these two great 
patriots of America to have some sort of foundation to use 
education, which we have learned from our own experience in 
this country, to try to help the developing world.
    Mr. Garrett. Again, I thank each of you. And I would now 
recognize the gentleman from California, Mr. Lieu.
    Mr. Lieu. Thank you, Mr. Chair. I want to thank each of the 
witnesses today, first of all, for your time and your 
expertise, and also for your work on these important issues.
    I would like to talk about Yemen. USAID, in December 13th 
of 2017, released a fact sheet on Yemen. I am just going to 
read some of the highlights. They say that, ``In Yemen, an 
estimated 22.2 million people require humanitarian assistance, 
including 17.8 people who require emergency food assistance. 
Due to ongoing conflict, Yemen faces the largest food security 
emergency in the world.''
    And as all of you know, the U.S. has a hand in this. We 
chose to take sides and we are refueling jets of the Saudi 
Arabia-led coalition that is doing air strikes in Yemen. There 
is also indications that these air strikes are striking 
civilians nowhere near military targets. I previously served in 
active duty in the military. They look like war crimes to me.
    I am pleased that certain countries chose not get involved 
with air strikes in Yemen, so just the country of Qatar. I 
think they made the right decision. But nevertheless, the U.S. 
did get involved with refueling these jets. There has also been 
articles that some of these jets are targeting farms, directly 
attacking production of food. And then Saudi Arabia, to make 
things worse, did a blockade on Yemen. Because of the outcry, 
both from the international community as well as Members of 
Congress and others, they partially lifted the blockade. So now 
they have a partial blockade going on.
    And so my first question to you is, do you believe Saudi 
Arabia needs to lift the blockade entirely in Yemen so that 
supplies such as fuel can get through and actually deliver the 
food to the people who need it?
    Anyone can answer that.
    Mr. Natsios. Anybody with a gun in a civil war eats. And so 
the notion that they are going to defeat the rebels, the Saudis 
are going to defeat the rebel movement is backed by Iran--Iran 
has a hand in this, too, a dirty hand in this--is being naive. 
I don't think the Saudis understand what they are doing.
    I think the blockade is inappropriate. Whether it is a war 
crime or not, I am not a lawyer. And that is a harsh term, but 
it is unacceptable, in my view.
    And the President did tweet it, and it upset the Saudis 
enough that they lifted it. And I know the Congress said 
things, but the thing that really upset them is one that 
someone they thought supported them did that little tweet.
    Mr. Lieu. Right.
    Mr. Natsios. And it shocked them.
    I wrote an op ed with the former Director of the Office of 
Foreign Disaster Assistance under President Obama. It was a 
bipartisan column on this. We haven't placed it yet. I don't 
know, maybe people think because the blockade was partially 
lifted, the media, they are not running the column. But the 
article said exactly what you said, which is that this is not 
acceptable and it needs to be stopped.
    Mr. Lieu. Thank you.
    Ms. Lentz. I would agree. I think that lifting the partial 
blockade would be incredibly helpful to get food to folks.
    Mr. Glickman. I concur but I also think this: That is, the 
role of the United States as a leader in humanitarian disasters 
is a multifaceted thing. It relates to food, it relates to 
abuse, it relates to improper treatment of prisoners, and we 
have to be a moral leader as well. It just can't cherry-pick: 
This country, not this country.
    And I worry about the fact that if we don't recognize that 
special nature--and perfect example, bipartisan example--it is 
nothing like Yemen, which is a disaster--was after the Second 
World War when President Truman decided that we had to 
rehabilitate Europe, and we had to feed these people, who did 
he choose to do this for him? He chose Herbert Hoover, the 
former President. Who ironically, President Roosevelt had 
isolated because he ran against him and lost. And that 
bipartisan effort on bringing Europe out of famine is a 
disaster, along with the Marshall Plan, revolutionized the 
world forever.
    Okay. Why did that happen? Because we had a couple of 
leaders who decided we needed to do that. And I think that is 
missing right now, to be honest with you.
    Mr. Lieu. Thank you, I appreciate that. And let me, only 
short amount of time left, just conclude with my comments that 
I believe the conduct of Saudi Arabia in this Yemen war is not 
acceptable.
    And the Washington Post reports that every 10 seconds, a 
child in Yemen dies. Saudi Arabia's conduct has lowered its 
standing in the international community. It has turned Members 
of the Congress against our ally. I urge Saudi Arabia to take 
another look at Yemen to get a political resolution, because 
the longer this goes on, the worse it will be for Saudi Arabia. 
I yield back.
    Mr. Garrett. Thank you, Mr. Lieu. They should have never 
given me the gavel because I am going to go into this a little 
bit.
    Mr. Natsios really hit on this. It is tragic how often we 
can trace back bad outcomes to the Iranian regime, because what 
is going on in Yemen is nothing more than a proxy war between 
the Saudis and the Iranians. And I would like to point out that 
Hezbollah, which is a wholly-owned subsidiary of Iran, has the 
unique distinction of having murdered people on every single 
inhabited continent on the planet. Think about that for a 
second.
    So without commenting, I think Mr. Lieu makes good points. 
I don't disagree with the members of the panel, but ultimately, 
you don't cut the branch of the tree off, you cut the tree 
down. And we need to act to support humanitarian outcomes and 
peaceful regime change in Iran, because you can trace Syria and 
Yemen and tragedies in Iraq all back to Tehran.
    So with that, I will also echo the sentiments of Mr. 
Natsios, who pointed out that a person with a gun in a civil 
war zone eats. Contemplate, if you will, being a 14-year-old 
boy who has no food and told, if you carry this rifle and shoot 
at these people, we will feed you.
    Mr. Glickman. And often paid large amounts of money to do 
that.
    Mr. Garrett. Sure. So what we do matters.
    With that. I want to thank each one of you. Again, this is 
important. This is important for who we are, this is important 
for how we will be judged by posterity.
    Your testimony is invaluable as we pursue reforms that will 
enable us to better utilize world-feeding programs, whether it 
is Food for Peace, whether it is McGovern-Dole, et cetera, and 
this is important, I believe, to U.S. national security and 
world peace and stability.
    With that, the committee stands adjourned.
    [Whereupon, at 12:11 p.m., the committee was adjourned.]

 
                            A P P E N D I X

  [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
